Office of Inspector General
U.S. Department of Labor
Office of Audit




                     The Dislocated Worker Program
                          in a Growing Economy
                 Audit Period: July 1, 1997 - June 30, 1998




                                              Report No. 04-00-002-03-340
                                              Issue Date: June 29, 2000
                                              TABLE OF CONTENTS

                                                                                                                                    Page

ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND AND PRINCIPAL CRITERIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          CHAPTER I - THE ELIGIBILITY OF MANY SERVED BY THE TITLE III PROGRAM
               WAS NOT ADEQUATELY DEMONSTRATED . . . . . . . . . . . . . . . . . . . . . . . . . 9

                     Numerous Groups Are Served by the Program. . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                     Eligibility Was Not Demonstrated for 35 Percent of Program Participants . . . . . . . . 11

                     Allocation Methodology May Not Distribute Funds
                      Where They Are Most Needed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                     Passage of the WIA Creates Additional Challenges . . . . . . . . . . . . . . . . . . . . . . . . . 19

          CHAPTER II - THE ACCURACY OF REPORTED PROGRAM AND
               PERFORMANCE DATA REQUIRES IMPROVEMENT . . . . . . . . . . . . . . . . . . 20

                     Measures of Program Success May Have Been Materially Overstated . . . . . . . . . . 20

                     SPIR Data Contained Significant Inaccuracies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

                     Accurate Program Data Are Critical to WIA Operations . . . . . . . . . . . . . . . . . . . . . 26

          CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

          RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

          ETA’S COMMENTS ON THE DRAFT AUDIT REPORT . . . . . . . . . . . . . . . . . . . . . . . 31

          ANALYSIS OF ETA’S COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

                                                                    ii
                                 TABLE OF CONTENTS (Continued)
                                                                                                      Page

OBJECTIVES, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

EXHIBITS

        EXHIBIT A - RESULTS OF STATISTICAL SAMPLES

        EXHIBIT B - COMPARISON OF PROGRAM FUNDING AND PROGRAM NEED

        EXHIBIT C - PY 1997 TITLE III APPROPRIATIONS - AVERAGE
                     FORMULA-FUNDED ALLOCATION PER TERMINEE

        EXHIBIT D - TITLE III AUDIT SITES - NUMBER OF PARTICIPANTS
                     TERMINATED DURING PY 1997

APPENDIX - TEXT OF ETA’S COMMENTS ON THE DRAFT AUDIT REPORT




                                                     iii
The Dislocated Worker Program in a Growing Economy




                                   ACRONYMS


BLS                Bureau of Labor Statistics
BRS                Basic Readjustment Services
CFR                Code of Federal Regulations
DOL                U.S. Department of Labor
DREA       Disaster Relief Employment Assistance
DW                 Dislocated Worker
EDWAA              Economic Dislocation and Worker Adjustment Assistance
ETA                Employment and Training Administration
FY                 Fiscal Year
GPRA               Government Performance and Results Act
JTPA               Job Training Partnership Act
MIS                Management Information Systems
NAFTA              North American Free Trade Agreement
OJT                On-the-Job Training
PL                 Public Law
PY                 Program Year
RRA                Rapid Response Assistance
SPIR               Standardized Program Information Report
SSA                Substate Area
TAA                Trade Adjustment Assistance
TEGL               Training and Employment Guidance Letter
TEIN               Training and Employment Information Notice
UC                 Unemployment Compensation
UI                 Unemployment Insurance
US                 United States
WIA                Workforce Investment Act
WIASRD             Workforce Investment Act Standardized Record Data




                                           iv


Office of Inspector General
The Dislocated Worker Program in a Growing Economy




                                  EXECUTIVE SUMMARY

Employee layoffs and plant closings prompted Congress to establish the Dislocated Worker (DW)
program through the Job Training Partnership Act’s (JTPA) Title III provisions. Since 1982, state and
local organizations have received billions of dollars to help dislocated workers qualify for and find new
jobs. JTPA Title III, Parts A and B, authorize services to a broad population of dislocated workers.
State and local governments are given wide latitude in interpreting the DW program’s eligibility criteria
and deciding what services participants will be offered.

We conducted an audit to determine if current policies and practices of the DW program resulted in the
targeted population, as defined by JTPA, being served. To accomplish our objective, we selected a
sample of 35 substate areas (SSAs) in 27 states and Puerto Rico. Our audit procedures included
interviews with SSA officials, review of program files of 630 Title III participants, and analytical
procedures as we determined necessary to meet our objectives. Our audit objectives did not include
determining the overall effectiveness of the program.

In determining participant eligibility, we applied, to the extent possible, criteria contained in the Act,
implementing regulations and program guidance issued by the Employment and Training Administration
(ETA). Where the Act, regulations and ETA guidance were not prescriptive with regard to certain
eligibility issues, we established what we consider reasonable benchmarks which are explained in the
relevant sections of this report.

                                    Based on our audit results, we question whether 35 percent of the
Program                             participants served as dislocated workers during Program Year (PY)
                                    1997 were eligible for assistance or were otherwise individuals
                                    Congress intended the program serve. Evidence that service
providers had adequately determined participants’ eligibility was often missing. In addition, we found
instances of broad interpretations of eligibility requirements by service providers, including enrollments
of people who were likely to return to similar occupations, had left itinerant or temporary jobs, were
fired for cause, were full-time students or had voluntarily retired. We believe an allocation methodology
that may not distribute funds to where they are most needed may have contributed to broadly applied
eligibility interpretations.

We also found programs that were not predominantly serving persons who fit the “traditional” notion of
a dislocated worker, that is, victims of plant closings or mass layoffs. In fact, at 5 of the 35 sites we
visited, over 40 percent of program participants were long-term unemployed. As discussed in the



Office of Inspector General
The Dislocated Worker Program in a Growing Economy




report’s conclusion, although certain long-term unemployed individuals were eligible under JTPA, the
long-term unemployed are not eligible to be served by the DW program under the Workforce
Investment Act, which replaces JTPA as of July 1, 2000, unless they are eligible under other DW
program criteria.

Our concerns with eligibility are not intended to suggest that many persons served by the DW program,
regardless of whether they satisfied program eligibility requirements, did not benefit from the DW
program. Although not within the scope of our audit, we observed many examples in which
participants were provided quality training that resulted in their obtaining employment in the fields in
which they received instruction. Rather, our concern is with adequately defining the target population to
be served. Guidance is needed to ensure the DW program concentrates on persons who are out of
work because of reduced demand for specific jobs or the obsolescence of specific skills, rather than the
general unemployed. We believe the guidance should be coupled with an allocation process that
distributes program funds where they are most needed.

                                 We also identified a need to improve the accuracy and completeness of
 Program                         data used to evaluate program activities and fulfill the Department’s
                                 reporting requirements under the Government Performance and Results
                                 Act (GPRA).

Program data reported by states to ETA through the Department’s Standardized Program Information
Report (SPIR) system were often incomplete or in error. As a result, the key measure of participants’
success in obtaining unsubsidized employment upon termination from the program, deemed the “entered
employment rate,” may have been materially overstated. ETA reported that the PY 1997 “entered
employment rate” for all Title III activities was 68 percent. After adjusting for errors and omissions
found in the data sampled, we statistically estimate the program’s entered employment rate was 53
percent.

We estimate that 81 percent of the records that comprise the PY 1997 SPIR contain errors in one or
more reported data elements. The errors affected key data, including measures of participants’ wages,
training activities, and successes in obtaining jobs.

The causes of errors were numerous and included carelessness in entering data, problems with software
used by individual entities to accumulate the data for transfer into SPIR, intentional use of “plug” figures
and omission of pertinent information.




Office of Inspector General                                                                                2
The Dislocated Worker Program in a Growing Economy




                              The Workforce Investment Act (WIA) replaces JTPA effective July 1,
 Conclusion                   2000. As with JTPA, Congress included a separately-funded WIA
                              component which is to be used exclusively for services to dislocated
                              workers. While certain displaced homemakers are eligible under
WIA’s DW program, the long-term unemployed – one-third of those served by the PY 1997 JTPA
DW program – are not eligible dislocated workers under WIA. Instead, the long-term unemployed
may receive services under WIA’s “Adult” program.

To ensure funds appropriated for dislocated workers reach them, we believe better guidance is needed
in defining the population to be served. In addition, improved means for allocating funds to areas of
need are essential.

Reliable program information is more critical to WIA’s success than to the JTPA’s. WIA’s provisions
base monetary incentives and sanctions for states, service providers, and vendors on entities’ successes
in serving participants. In addition, the number and variety of mandatory performance measures that
will be used to gauge WIA programs’ performance have been expanded. Consequently, program
information must be accurate and complete.

In a meeting on May 31, 2000, the Assistant Secretary for Employment and Training stated his view
that state and local Title III recipients had exercised flexibility as intended by Congress in delivering
workforce services to meet local needs. He believed this flexibility extended to state and local
discretion in establishing criteria for determining eligibility for JTPA Title III dislocated worker
programs. ETA acknowledged that as this flexibility increases under WIA, so will the value of
increased monitoring and technical assistance. Accordingly, ETA plans to increase its dislocated
worker program technical assistance and monitoring activities.

                                We recommend the Assistant Secretary for Employment and Training:
 Recommendations

                                        •        Ensure adequate guidance is provided to states so that
                                                 the files of participants who are certified for intensive
                                                 services under WIA contain adequate information to
                                                 qualify them as dislocated workers and entitle them to
                                                 services deemed necessary to return them to the
                                                 workforce.




Office of Inspector General                                                                                  3
The Dislocated Worker Program in a Growing Economy




        •       Determine if a more equitable method of allocating DW funds can be devised which
                would result in funds being distributed to areas where the most dislocated workers
                reside.
We also recommend the Assistant Secretary require ETA staff complete periodic, comprehensive
quality review and oversight of data entered into participant information systems to ensure placements
are valid and data are entered in accordance with program guidance and are otherwise accurate and
complete. The reviews should be completed at the point-of-entry and at entities responsible for
consolidating the information.

                                  While ETA generally agreed with some of our recommendations, they
 ETA’s Comments did not agree with the procedures we employed, the meaning of data
                                  presented in the report or many of the conclusions we reached.
                                  According to ETA, the report does not adequately consider the
authority granted state and local governments or the need for flexibility in addressing local labor market
conditions. ETA believes this flexibility extended to state and local discretion in establishing criteria for
determining JTPA Title III program eligibility.

ETA agreed to work with state and local governments in ensuring files adequately document
participants’ eligibility and plans to increase DW program technical assistance and monitoring activities.
However, the comments do not indicate agreement that additional guidance on program eligibility is
needed. ETA did indicate a review of the DW program’s distribution formula may be completed as
part of a mandated review of WIA allocation formula for the adult program.

Regarding the accuracy of data, ETA cited recent initiatives to improve the accuracy of JTPA program
data and indicated it will increase its efforts to ensure WIA program data is complete and correct.
ETA believes the use of Unemployment Insurance (UI) wage records to capture WIA participant
outcome information will also help eliminate some errors identified in our review.

                                  We continue to believe clearer guidance is needed to define the target
 Analysis of                      population and ensure persons served by the DW program are those
 ETA’s Comments Congress intended to receive assistance. We believe better guidance
                                  can be provided program operators without sacrificing state and local
                                  flexibility in designing or delivering programs. To ensure funds
appropriated for dislocated workers reach them, improved means for allocating funds to areas of need
are essential. Finally, accurate information is critical to evaluate the program’s effectiveness.




Office of Inspector General                                                                                     4
The Dislocated Worker Program in a Growing Economy




                   BACKGROUND AND PRINCIPAL CRITERIA


                        The DW program is authorized by Title III of JTPA (P.L. 97-300, dated
 Backgro                October 1982, as amended). The program is administered by ETA in
                        partnership with the states. Eighty percent of the funds appropriated for this
                        program is required to be allocated among states according to the following
                        formula:

         •      one-third of the funds allocated based upon the number of unemployed persons in each
                state;

         •      one-third of the funds allocated based upon the excess number of unemployed persons
                in each state. (Excess is defined as the number of unemployed in excess of 4.5 percent
                of the labor force in each state); and

         •      one-third of the funds allocated based on the number of persons who have been
                unemployed for 15 weeks or more.

JTPA authorizes Governors to allocate dislocated worker funds among several sets of activities.

Up to 40 percent may be reserved for State activities and Substate Grantees in need, including:

     C          State administration, technical assistance, and coordination of dislocated worker
                programs;

     C          statewide, regional, or industry wide projects;

     C          rapid response activities;

     C          coordination between the unemployment compensation and worker adjustment
                systems; and

     C          discretionary allocation to provide additional assistance to local areas that experience
                substantial increases in the number of dislocated workers.




Office of Inspector General                                                                                5
The Dislocated Worker Program in a Growing Economy




Up to 10 percent may be reserved by the Governor for allocation among substate grantees on the basis
of need, to be distributed not later than 9 months after the beginning of the program year.

A minimum of 50 percent to be allocated among substate areas based on a formula prescribed by the
Governor. The statute requires that the formula utilize the most appropriate information available to
distribute amounts to address the State’s worker readjustment needs. The formula must include the
following six factors as required by law, but the statute does not assign specific weights to these factors
nor does it prohibit the inclusion of other factors that might be appropriate:

     C          insured unemployment data;

     C          unemployment concentrations;

     C          plant closing and mass layoff data;

     C          farmer-rancher economic hardship data; and

     C          long-term unemployment data.

The remaining 20 percent of the funds appropriated are reserved for the Secretary to fund the activities
described below:

     (1) Mass layoffs, including mass layoffs caused by natural disasters or Federal actions when the
         workers are not expected to return to their previous occupations.

     (2) Industry-wide projects.

     (3) Multistate projects.

     (4) Special projects carried out through agreements with Indian tribal entities.

     (5) Special projects to address national or regional concerns.

     (6) Demonstration projects.

     (7) Additional financial assistance to programs and activities provided by states and substate
         grantees.


Office of Inspector General                                                                                   6
The Dislocated Worker Program in a Growing Economy




     (8) Additional assistance under proposals for financial assistance that are submitted and
         approved by the Secretary after consultation with the Governor of the State in which the
         project is to operate.

The amounts reserved for use by the Secretary also may be used to provide services whenever the
Secretary determines that an emergency exists with respect to a distressed industry or a distressed
area. The funds may also be used for staff training or technical assistance and training of rapid
response staffs. JTPA also provides that excess funds be recaptured by the Secretary and reallotted
among eligible states after the conclusion of each program year. Excess funds are defined as those in
excess of 20 percent of the prior year’s allotment. Governors are required to prescribe uniform
procedures for the expenditure of funds by substate grantees in order to avoid reallotment.

Beginning in FY 1996, DOL appropriations have permitted SSAs to transfer up to 20 percent of their
allocations between Title II-A and Title III.

JTPA expires on June 30, 2000, and is replaced by WIA (P.L. 105-220). The DW program is
continued under WIA. Adults and dislocated workers will obtain core services, such as initial
assessment and job search, through a locally-established one-stop delivery system. Individuals who
meet WIA’s definition of “dislocated workers” may be enrolled in the DW program, if they have not
been able to obtain employment after they have received core services and have been determined in
need of more intensive services. Intensive services include specialized assessments, diagnostic testing,
development of an individual employment plan, and case management for those seeking training.

                                  The DW program’s participant eligibility requirements are found in the
  Principal                       JTPA, Title III, Section 301. Eligible dislocated workers are defined as
                                  persons who:
  Criteria
                                       •    have been terminated or been laid off, or who have received a
                                            notice of termination or layoff from employment, are eligible
                                            for or have exhausted their entitlement to unemployment
                                            compensation (UC),1 and are unlikely to return to their
                                            previous industry or occupations;


        1
          The JTPA regulations at 20 CFR 631.3(a) provide that the term “eligible for unemployment
compensation” includes individuals whose wages would be considered in determining eligibility for
unemployment compensation under Federal or state laws. A similar provision is included in the WIA definition of
dislocated worker.


Office of Inspector General                                                                                       7
The Dislocated Worker Program in a Growing Economy




     •    have been terminated or have received a notice of termination of employment as a result of
          any permanent closure of or any substantial layoff at a plant, facility, or enterprise;

     •    are the long-term unemployed and have limited opportunities for employment or
          reemployment in the same or a similar occupation in the area in which such individuals reside,
          including older individuals who may have substantial barriers to employment by reason of age;
          or

     •    were self-employed (including farmers and ranchers) and are unemployed as a result of
          general economic conditions in the community in which they reside or because of natural
          disasters, subject to regulations prescribed by the Secretary.

JTPA Section 314(h) states that workers at a facility whose employer has made a public announcement
that the facility will close, but who have not received specific notice of termination or layoff, may be
provided certain specified services (except for those workers likely to remain employed with the same
employer or who retire without seeking new employment).

In addition, UI claimants who have been profiled and referred for reemployment services may be
served under Title III if a Governor has issued a policy that “likely to exhaust” meets the criteria for
“unlikely to return.” The concept was initiated in an attempt to provide early intervention to those
profiled as such. It is intended that the DW program assist participants’ reentry into the job market as
soon as possible and, in the process, reduce UC benefit payments. Section 20 CFR 631 describes
allowable activities of the DW program. State and local governments are given wide latitude in
interpreting the DW program’s eligibility criteria and deciding what services participants will be offered.

Under WIA, assistance to dislocated workers is continued through a separately-funded program.
Participant eligibility criteria are nearly identical to those under the JTPA’s DW program, except that
the long-term unemployed are no longer defined as eligible dislocated workers. However, displaced
homemakers have been elevated in status from“optional” under JTPA to an eligible target group under
WIA. The long-term unemployed may receive services from WIA’s Adult program component.




Office of Inspector General                                                                                   8
The Dislocated Worker Program in a Growing Economy




                        FINDINGS AND
                       RECOMMENDATIONS

     CHAPTER I - THE ELIGIBILITY OF MANY SERVED BY THE
   TITLE III PROGRAM WAS NOT ADEQUATELY DEMONSTRATED


The DW program was authorized by Title III of JTPA (P.L. 97-300, dated October 1982), in
response to the growing number of layoffs in heavy industries in the late 1970s and early 1980s. Many
industries, including steel and automotive manufacturing, were undergoing tremendous upheavals, and it
was recognized that many of the unemployed workers in these industries were unlikely to return to the
same jobs and needed retraining to obtain jobs with comparable wages.

The economy has experienced unprecedented growth during the past decade. In August 1998, the
Bureau of Labor Statistics (BLS) reported that the number of workers displaced from jobs they had
held at least 3 years had declined from 4.2 million in the period January 1993 to December 1995 to 3.6
million in the period January 1995 though December 1997. However, dislocations continue to occur,
and Congress sees a need to provide affected workers who are unlikely to return to similar occupations
with assistance in preparing for reentry into the workforce.2

The definition of dislocated workers under JTPA Title III programs has been broadly interpreted. We
project that 35 percent of the participants served by the program either did not meet requirements for
participation or documentation in their files was inadequate to establish their eligibility.

We found service providers did not sufficiently observe requirements to evaluate whether individuals
had a job of dislocation or prospects of returning to similar work. Other persons whose eligibility was
questionable for a variety of reasons were also enrolled.

The Title III allocation formula does not ensure funds are distributed to areas where dislocated workers
most need assistance. The allocation formula is based upon levels of unemployment which ensure that



         2
          In addition to the DW program, Labor administers the Trade Adjustment Assistance (TAA) and North
American Free Trade Agreement/Transitional Adjustment Assistance (NAFTA/TAA) programs. The TAA and
NAFTA/TAA programs provide services, training, relocation assistance and trade readjustment allowances to
individuals who are unemployed because of increased imports of foreign products. NAFTA/TAA serves persons
impacted as a direct or indirect result of import from Canada or Mexico. Participants may be jointly enrolled in the
DW program and either TAA or NAFTA/TAA programs; however, jointly enrolled participants represent an
insignificant portion of DW program participants discussed in this report.


Office of Inspector General                                                                                            9
The Dislocated Worker Program in a Growing Economy




each state and SSA receives a minimum amount of funds, regardless of the potential for plant closures
or mass layoffs.

With the passage of the WIA, some adjustments have been made to definitions of eligible groups the
DW program intends to serve. However, dedicated funding is still provided for the DW program, and
eligibility requirements for the remaining target groups are virtually unchanged.

                                        JTPA Title III identifies eligible groups that include victims of
 Numerous Groups                        plant closings and substantial layoffs; the long-term unemployed
 Are                                    with limited opportunities for employment in the same
 Served by the                          occupation and area; those who have been laid off and are
 Program                                eligible for, receiving or have exhausted unemployment benefits;
                                        the self-employed whose livelihood has been affected by
                                        general economic conditions; and displaced homemakers. In
addition to those individuals who seek assistance, state agencies refer UI recipients to the DW program
who have been “profiled” as likely to exhaust their benefits.3

                                                                                  Figure 1




        3
          We reviewed profiled cases using the same criteria as other cases in our sample. The service
providers generally treated profiled participants as automatically eligible, although some participants we
questioned had been profiled.


Office of Inspector General                                                                                  10
The Dislocated Worker Program in a Growing Economy




Figure 1 illustrates the composition of persons served during PY 1997, as projected from our sample of
630 program participants at the 35 sites we visited.4 We have grouped them into four major
categories related to program eligibility criteria.

As shown, those who were laid off, eligible for or exhausted UC comprised 37 percent of the
dislocated workers in our sample. Victims of plant closures and mass layoffs accounted for 29 percent.
The long-term unemployed were 33 percent of our sample.

                                                         Based on our projections, we question whether 35
 Eligibility Was Not                                     percent of the participants should have been
 Demonstrated for 35                                     served by the DW program during PY 1997.

                                                         As depicted in Figure 2 on the following page:

     •       Twenty-one percent of the participants’ files lacked sufficient evidence that service providers
             considered participants’ prospects of returning to previous occupations or industries from
             which they were displaced.5 Participants in this category were displaced from high-demand
             jobs, suggesting they may be capable of returning to their previous occupations.

     •       Twelve percent of participants had been employed for short periods of time before they quit
             or lost their jobs, did not have a legitimate job of dislocation, and had not established their
             attachment to the workforce.

     •       Eighteen percent of participants served were questioned for other reasons, which
             included persons fired for cause, those who voluntarily quit their jobs, retirees and
             temporary workers.

Twenty-one Percent of Participants’ Job Prospects Were Not Adequately Evaluated. Often
SSAs did not establish whether persons they served were capable of finding jobs in similar
occupations.


         4
           Unless otherwise indicated, percentages shown throughout the report are point estimates obtained
from projections of our sample results of some 630 program participants at the 35 sites we visited. For a
discussion of the sampling methodology and precision achieved, see the Objectives, Scope and Methodology
section of the report and also Exhibit A.

         5
         The total of the individual categories exceeds 35 percent because some participants’ eligibility was
questioned for more than one reason. Seven participants were employed in high-demand occupations less than
6 months and were classified as both high demand and no job of dislocation. Twenty-six participants were
questioned because of the high demand occupation issue and other issues. Finally, 10 participants were
questioned because of the job of dislocation issue and other issues.



Office of Inspector General                                                                                     11
The Dislocated Worker Program in a Growing Economy




                                                                                Figure 2

                                        Eligibility Concerns

                                                                  No Job of
                                                                  Dislocation
                                                                    (12%)




                           Not          Questioned                High Demand
                        Questioned        (35%)                    Occupation
                          (65%)                                      (21% )




                                                                 Other (18 %)




The JTPA makes a key distinction in the definition of eligible dislocated workers between persons who
have lost their jobs because of the permanent closures of facilities or substantial layoffs, and persons
who are eligible for or have exhausted their UC entitlement. JTPA Section 301(A) requires individuals
in the UC category to also be “. . . unlikely to return to their previous industry or occupation. . . .”

Similar language in Section 301(C) indicates that to be eligible, the long-term unemployed
“. . . must have limited opportunities for employment or reemployment in the same or similar
occupation in the area in which such individuals reside.” Hence, persons can be unemployed,
eligible for UC and not eligible for the DW program, if they have good prospects for finding similar
employment. This determination is critical in deciding whether an individual is a dislocated worker or
merely unemployed.

Some SSAs we visited did make efforts to evaluate participants’ opportunities. Among those sites
where adequate identification of employment prospects was a concern to us, 18 percent had made
substantial efforts to establish that the individuals were unlikely to return to the same or similar
occupations. For example, they compared individuals’ qualifications to job orders listed with the State
Employment Security Agencies, or required applicants as part of the DW program application process
to identify job search efforts they had attempted. However, at most SSAs, we found no evidence that
such actions took place.


Office of Inspector General                                                                              12
The Dislocated Worker Program in a Growing Economy




We project that 21 percent of the participants had lost jobs that were considered in high demand in the
area they resided. We used listings of high-demand occupations identified for each area through the
JTPA planning process to determine if individuals’ occupations in their jobs of dislocation were in high
demand. We considered participants’ prospects of returning to their previous occupations good if their
jobs of dislocation matched the high-demand occupations listed and there were no extenuating
circumstances. Such circumstances included participants’ age or health if they would have prevented
them from returning to similar work. Examples of participants who possessed high-demand skills
included in our sample were experienced medical personnel and secretaries.

Twelve Percent of Participants Did Not Have Bona Fide Jobs of Dislocation. It is implicit that a
qualified dislocated worker had a job from which he or she was dislocated. However, neither the
JTPA nor program regulations address the period of time a dislocated worker should be employed to
qualify for assistance under any of the program’s categories. Moreover, ETA has not issued guidance.

Jobs of dislocation claimed for participants were often of short duration. One participant in our sample
was employed in what was identified as a job of dislocation that lasted only 1 day. One SSA we
visited did not identify jobs of dislocation for 12 of the 18 participants we sampled.

We project that 12 percent of program participants did not have bona fide jobs of dislocation. 6 We
evaluated the length of time sampled participants were employed in positions identified as their jobs of
dislocation and their previous work histories and decided whether these factors indicated they had
established a legitimate job of displacement. Generally, we considered applicants to have established
jobs of dislocation if they had worked for employers 6 months or more. We did not question any
participant with a stable work history, regardless of the skill-level his/her job may have entailed. For
example, we did not question the eligibility of individuals employed in the fast-food service industry for
more than 6 months before they were laid off.

Examples of some participants’ jobs of dislocation and their duration with which we took issue include:

     •       A 16 year-old participant reported working 1 hour per week during 1 summer month mowing
             lawns. The landscape work was cited as the participant’s job of dislocation.

     •       A participant was laid off as a breakfast cook after 3 months on the job. The participant’s
             work history consisted of a series of short-term jobs in unrelated occupations with no
             indication he had held a bona fide job of dislocation.




         6
          A large proportion of dislocated workers served by SSAs in our sample had been in their jobs of
dislocation for short periods of time. About 28 percent of those in our sample were employed less than one year,
15 percent less than 6 months and 7 percent less than 3 months.


Office of Inspector General                                                                                        13
The Dislocated Worker Program in a Growing Economy




     •    A participant’s job of dislocation was a bilingual collection representative at which he was
          employed for less than 1 month. Also, the individual was fired for cause.

     •    A participant’s job of dislocation was that of a retail cashier, a position she had held for only
          10 days before being laid off.

Eighteen Percent of Participant Enrollments Were Questioned for a Variety of Other
Reasons . Based on our projections, 18 percent of participants in the laid off and eligible for or
exhausted UC category had voluntarily quit their jobs, were fired for cause, had voluntarily retired, or
were already full-time students at the time of program enrollment.

SSAs in our sample enrolled individuals into the program whom they should have identified as not
satisfying the program’s eligibility criteria. For example, an SSA enrolled an individual who was
categorized as “laid-off and eligible for or exhausted” UC. Supporting documentation indicated the
participant was not laid off but had voluntarily quit his job because of extensive travel requirements.
We also found examples of files that indicated the participants had voluntarily quit or had been fired
from their previous jobs, yet they were deemed eligible under the UC, plant closure or substantial layoff
criteria. Finally, we identified participants who were admitted to the program under the plant closure or
substantial layoff criteria, although they had voluntarily retired from their jobs.

We also had concerns with a program for which ETA provided funds from the National Reserve
Account. In one grant, National Reserve funds were used to provide services to 266 temporary
workers. Many of the individuals were welders hired at an automotive plant to complete projects
within a 2-year period, after which robotic welders were to come on-line and displace the workers.
The company classified the jobs as (full-time) temporary and did not provide the workers with fringe
benefits afforded permanent employees. The workers were advised the jobs were temporary at the
time they accepted them. We do not believe Title III funds should have been used to serve workers
who were hired with the understanding that the jobs were temporary.

                                               Eighty percent of JTPA Title III funds is distributed to
  Allocation                                   states and substate areas through application of a formula
  Methodology May                              as discussed in the Background and Principal Criteria
  Not Distribute Funds section of this report. The formula is based upon various
                                               unemployment measures that do not consider the numbers
                                               of dislocated workers who need assistance nor the
potential for plant closings or mass layoffs. Title III funds are allocated by the states to SSAs in a
similar manner as also discussed in the Background and Principal Criteria section.




Office of Inspector General                                                                                   14
The Dislocated Worker Program in a Growing Economy




The appropriations process results in substantial differences in DW program funds allocated to the
states. We divided the $1 billion appropriated through the PY 1997 formula distribution process7 by
the numbers of participants each state reported as terminated from the program. As shown in Exhibit
C, the average amount of funds available for each person who terminated from the program ranged
from $1,203 in Georgia to over $20,000 in the District of Columbia.

The wide range in available funds may be partially explained by differences in local conditions, client
populations and service delivery approaches. However, the District of Columbia had a relatively high
unemployment rate but few dislocated workers and returned over $1 million of excess Title III funds in
PY 1997.8

In PY 1997, a net total of $28.8 million was transferred from Title III to Title II-A by 22 state entities
that did not spend all the Title III funds they were allocated. (An additional 11 state entities shifted
funds from Title II-A to Title III.) California shifted $12.7 million from Title III to Title II-A for
distribution among its SSAs. In PY 1997, Florida transferred a total of $7 million ($4 million of PY
1997 and $3 million of PY 1996 funds) from Title III funds to Title II-A. In addition, the State returned
over $3.4 million, or 7 percent, of its PY 1997 allocation to the Secretary for reallocation.

JTPA and program regulations require recapture of excess funds. However, each DOL appropriation
since FY 1996 has allowed Governors to authorize SSAs to shift up to 20 percent of formula allocated
funds between Title II-A and Title III. For example, one SSA in our sample spent only 43 percent of
available funds. This SSA transferred 20 percent to the JTPA Title II-A program, carried forward 15
percent to the next program year, and returned the remainder to the Governor for redistribution. The
grantee explained that, while they continued to experience incidents of worker dislocations, the
incidences were fewer and smaller in size. This same grantee, in its operational plan modification,
commented:
     The dislocated worker today more often qualifies as a long-term unemployed
     individual, as compared to those who qualified as recently terminated and unlikely to
     return to previous occupation or industry. Today, these Title III eligible individuals
     choose to seek immediate employment and/or short-term training. They do not want to



        7
          Funds that are allotted to states by formula include base and Governor Reserve amounts. National
Reserve funds are used to provide assistance to areas experiencing plant closings and mass layoffs,
dislocations caused by Federal actions, foreign trade and natural disasters. These funds are awarded in
response to grant applications and also support DW demonstration projects and technical assistance activities.
In PY 1997 they totaled $249 million and were excluded from our calculations.

        8
          It should be noted that the number of program terminees does not reflect participants enrolled but not
yet terminated, nor does it include persons who were not enrolled but received services under state rapid
response activities. Under WIA, some dislocated workers may also receive unassisted core services without
being enrolled in the program.


Office of Inspector General                                                                                        15
The Dislocated Worker Program in a Growing Economy




     enter into long-term training situations that takes them out of the workplace for
     extended periods of time as it creates economic hardships on their families.

This provider indicated that they had fewer dislocated worker clients to serve, and those requiring
services were only interested in short-term, less expensive service. Thus, less Title III funding was
needed.

While some excess grant funds are returned, we believe both state and local governments are reluctant
to return surpluses. Instead, some entities relaxed eligibility criteria to spend available dollars. To
illustrate, most localities required an individual be unemployed for 15 weeks or more to be considered
long-term unemployed. The 15-week criteria are consistent

                                                                                  Figure 3




Office of Inspector General                                                                               16
The Dislocated Worker Program in a Growing Economy




with the formula used to allocate annual appropriations. However, one state in our sample reduced the
time necessary to qualify as long-term unemployed to 8 or more weeks. Most participants served by
the DW program were considered long-term unemployed under the state’s definition. Only 11 percent
(2 of the 18 participants) sampled at this site had lost their jobs because of plant closures or substantial
layoffs.

Further, in many of the locations we visited, few major industries existed and those served by DW
programs were not the victims of plant closings or mass layoffs. As shown in Figure 3, at 10 of the 35
SSAs we visited, more than 20 percent of terminees were long-term unemployed; this includes 5 sites
where over 40 percent of the terminees were long-term unemployed. Overall, we estimate 33 percent
of the participants served during PY 1997 were long-term unemployed.

We believe the level of Title III funding in some locations and a funding allocation system that does not
direct funds to where they are most needed may have contributed to the broad application of program
eligibility requirements.

Funding for DW Programs Has Increased During a Period of Economic Growth. Increased
Title III funding and a robust economy may have also influenced service providers to enroll participants
not traditionally served by the program. Funding for the DW program has increased from 1992 levels
of $577 million to $1.6 billion in PY 2000. However, a variety of sources indicate that during the
period, persons displaced from jobs and the unemployment rate have sharply declined. For example,
in August 1998, BLS reported that the number of workers displaced from jobs they had held at least 3
years had declined from 4.2 million in the period January 1993 to December 1995 to 3.6 million in the
period January 1995 though December 1997.

Figure 4 illustrates recent trends in Title III program funding, mass layoffs, and persons who have lost
their jobs. It compares the percentages of increases and decreases in: (1) Title III
appropriations, (2) the number of persons affected by mass layoffs, from FY 1995 through FY 1999,
using FY 1995 as the base year, 9 and (3) the number of persons who lost their jobs,
 from FY 1992 through FY 1999, using FY 1992 as the base year.




        9
          BLS did not capture comparable data on persons affected by mass layoffs from FY 1992 through FY
1994. Consequently, trends for all three measures could not be presented prior to 1995. The number of persons
unemployed during the same period was substantially higher than the number that lost their jobs, although those
unemployed also plummeted form 9.6 million in FY 1992 to 6.2 million in FY 1998. We have presented “persons
who lost their jobs,” because, according to BLS, they do not include certain categories of the unemployed such as
persons under 16, first time entrants into the labor force, or persons who voluntarily quit their jobs.



Office of Inspector General                                                                                     17
The Dislocated Worker Program in a Growing Economy




                                                                        Figure 4




                   Source: Unemployment Data, BLS. See Exhibit B.


As detailed in Exhibit B, Title III funding rose sharply from $577 million in FY 1992 to about $1.4
billion by FY 1999, an increase of over 140 percent. In contrast, the Bureau of Labor Statistics (BLS)
reported the number of persons who lost their jobs plummeted from 5.3 to 2.6 million during the same
period, a decrease of 50 percent. On the other hand, the number of persons affected by mass layoffs
had remained relatively constant but dropped in 1999 to about 1995 levels. In FY 1995, about 1.6
million people were affected by mass layoffs. In FY 1999, the number had returned to the same 1.6
million level.

The Department’s Office of the Chief Economist echoes BLS’ findings. The numbers of persons
displaced in recent years have dramatically decreased from those of the early 1990s. According to the
economists, the displacement rate for workers with 3 or more years of tenure was 3.9 percent in the
1991-92 period and fell to 2.9 percent in the 1995-96 period. Because new jobs have outnumbered
the volume of job losses, both the rate of reemployment and earnings after reemployment have been
higher in the 1990s than at any comparable points in




Office of Inspector General                                                                             18
The Dislocated Worker Program in a Growing Economy



the 1980s.10 The economists also report a net total of 20 million jobs were added during the period
January 1993 through November 1999. Further, it was reported that, “The 20 million jobs created
since January 1993 have overwhelmingly been good jobs.”

                                   PY 2000 funding for the DW program has reached an all time high of
 Passage of the                    $1.6 billion. By July 1, 2000, WIA will have replaced JTPA across
 WIA Creates                       the country. Under WIA’s provisions, the long-term unemployed,
 Additional                        who represented one-third of PY 1997 participants served under Title
                                   III, will no longer be eligible for assistance as dislocated workers.
                                   Instead, the long-term unemployed have been absorbed into WIA’s
separately funded
                                   “Adult” program.

However, displaced homemakers are an eligible target group under WIA’s DW program. Displaced
homemakers could be served under JTPA only if the governor determined that assisting them would not
adversely affect services to other eligible groups. The JTPA’s definition of a displaced worker
encompassed both recipients of public assistance under Aid for Families with Dependent Children and
persons dependent upon another family member’s income. WIA’s definition of displaced homemakers
is limited only to persons who are dependent upon another family member’s income and have lost that
source of income. Persons dependent upon public assistance may be served by WIA’s Adult program.

Although WIA has made changes to the groups eligible for DW program assistance, grant monies will
be apportioned using the same formula applied to JTPA Title III funds. The formula contains measures
that include the proportion of long-term unemployed, yet they are no longer defined as eligible
dislocated workers.

We note that the Department’s FY 2001 budget request includes $1.8 billion for the DW program.
Without adjustments to the allocation process, we believe funds may not be distributed where they are
most needed.




        10
            “20 Million Jobs: January 1993 - November 1999, A Report by the Council Economic Advisors and the
Office of the Chief Economist”, U.S. Department of Labor, December 1999”


Office of Inspector General                                                                                     19
The Dislocated Worker Program in a Growing Economy



       CHAPTER II - THE ACCURACY OF REPORTED PROGRAM
        AND PERFORMANCE DATA REQUIRES IMPROVEMENT


Data on several key DW programs’ activities contained in the SPIR were materially inaccurate. A
variety of problems, including inattention to data entry procedures, errors and omissions, have
compromised reported program results.

The SPIR is a system administered by ETA that provides data file formats and record layouts which
states can use to electronically transfer JTPA-related data from their management information systems
(MIS) into the SPIR. Although each state’s MIS is unique, all the states avail themselves of this
arrangement. Therefore, if data are missing or in error in the SPIR, the same problem is likely to be
present in an entity’s MIS.

Data are captured in the SPIR when a participant is terminated from JTPA. Therefore, the SPIR for
any program year contains a record of all services received by participants terminated from JTPA
programs in that year, including those who may have been enrolled in current or past years. SPIR data
are used for a variety of purposes. They are a source of information for social research, the basis for
states and ETA to evaluate the JTPA programs’ effectiveness, and the means for ETA to gather
information on performance measures as required by the GPRA.

                                       The single mandatory PY 1997 national performance standard
  Measures of                          under the DW program was the “entered employment rate,”
  Program Success                      which measures participants’ success in obtaining unsubsidized
  May Have Been                        employment upon terminating from the program. For PY 1997,
  Materially                           the Secretary of Labor established an “entered employment
  Overstated                           rate” of 72 percent as a performance standard for the DW
                                       program. For PY 1997, ETA reported the DW program
                                       achieved an “entered employment rate” 79 percent, well above
the 72 percent established as a standard. However, our work indicates program successes were
overstated.

We could not directly estimate the effect of data errors on the “entered employment rate” because the
mandatory performance measure consisted of only data from substate program activities. Our sample
included participants from all Title III programs and considered reported data for participants in
substate, Governors’ and National Reserve grants. However, ETA also reported a composite Title III
“entered employment rate” measure of 68 percent for the PY 1997 program which represented
substate formula grants, Governors’ Reserve and National Reserve funding sources.

While the single mandatory Title III performance standard considers only substate formula program
results, the composite measure was computed using SPIR participant data from all grants and is


Office of Inspector General                                                                             20
The Dislocated Worker Program in a Growing Economy



comparable to the population from which we drew our sample.11 After correcting for errors present in
the data we sampled, we statistically estimated the composite “entered employment rate” was 53
percent, or a difference of 15 percentage points from the 68 percent rate reported by ETA. 12 As the
preponderance of SPIR consists of substate program data, we suspect the 79 percent entered
employment rate for substate activities which was reported by ETA against the single mandatory
performance measure is also overstated.

We also have concerns with procedures used to collect data on the program’s success. Following
individuals’ active participation in the program, staff may maintain contact with participants to
determine their status. Program guidance published by ETA in Training and Employment Information
Notice (TEIN) No. 5-93, January 24, 1997, required that each participant be terminated from the DW


                                                                                              Figure 5




         11
           According to ETA’s instructions, this rate is calculated by taking the total number of individuals who
entered employment (for 20 or more hours per week) at termination, excluding those who were recalled or
retained by the original employer after receipt of a layoff notice, divided by total terminations excluding those who
were recalled or retained by the employer after the participant had received a layoff notice.

         12
             The difference of 15 percentage points between the rate we projected and that reported by ETA is
statistically significant at 90 percent confidence limits. See Exhibit A.


Office of Inspector General                                                                                             21
The Dislocated Worker Program in a Growing Economy



program no more than 90 days after the last “substantial” services were provided the participant.13
Compliance with the guidance reduces the opportunity for service providers to hold participants in
status until it is determined that they have obtained jobs, and then claim them as program-related
placements.

However, the guidance was often ignored. As Figure 5 illustrates, 19 percent of the placements
claimed in our sample (86 of 461) were invalid. Invalid placements included 59 individuals who had
not been terminated from the program although 100 days14 or more had passed since they last received
substantial services. In fact, 22 of the 59 individuals had not been reported as terminated 200 days
after the date of last substantial services. One individual remained in status for almost 2 years after he
had completed training.

An additional 24 individuals who were claimed as having entered employment had returned to (been
recalled) or remained with their previous employers. SPIR instructions require programs to count as a
“recall” a participant whose training was not a primary reason for recall action. We determined that
training received through Title III programs was not the primary reason for the recall of 24 participants
who returned to their previous employer. Consequently, such participants should have been removed
from calculations of ETA’s mandatory performance standard.15 Three additional placements were
considered invalid for other reasons.

                                          We estimate program operators made errors in one or more
 SPIR Data                                data elements in 81 percent of the records included in PY 1997
 Contained                                SPIR, which led to misreporting of program services and
 Significant                              outcomes.
 Inaccuracies




        13
           According to ETA’s TEIN No. 5-93, “substantial services” are those authorized in JTPA Sections 314 (c)
and (d), which include Basic Readjustment Services (BRS) and retraining, respectively.

        14
          As mentioned, ETA’s standard is 90 days. We added an additional 10-day “grace period” and
considered placements claimed within 100 days of last substantial service to have complied with the policy.

        15
           We have excluded participants who were “recalls” from our calculation of the “entered employment
rate.” We also excluded from the numerator participants who were placed and had worked in occupations less
than 20 hours per week. According to information ETA provided us, this is consistent with their instructions for
calculating the “entered employment rate.” Also, participants funded under National or Governor’s Reserve grants
are excluded in determining this rate. However, we included these persons in our sample for comparison
purposes.


Office of Inspector General                                                                                     22
The Dislocated Worker Program in a Growing Economy



We believe our estimate of the overall error rate is
conservative.16 Errors were caused by lack of diligence in recording the information, problems with
software used to accumulate the statistics, intentional use of plug numbers, and misinterpretations of
SPIR instructions. SPIR errors that occurred most frequently involved:

     •        job of dislocation wages;

     •        training dates;

     •        training hours provided;

     •        unsubsidized employment; and

     •        participant followup.

“Job of Dislocation Wages” Were Inaccurately Reported for 11 Percent of Participants. We
estimate 11 percent of the participants (excluding displaced homemakers) either had no wages reported
for their jobs of dislocation or the wages entered into SPIR were incorrect. Therefore, the SPIR’s
value in determining if the program resulted in wage gains or losses for the participants who were
served is questionable.

In some instances, service providers used the minimum wage as a “plug” figure in the SPIR when the
wages for the participants’ jobs of dislocation had not been determined. In other instances, the wages
for individuals’ jobs of dislocation were inaccurate because interviewers mistakenly cited wages
participants earned in intervening temporary “stopgap” jobs as wages in their jobs of dislocation.
Program regulations at CFR 631.3(i)(2) provide an eligible dislocated worker remains eligible if the
individual, “. . . (2) accepts temporary employment for the purpose of income maintenance. . . .”

Errors Involving Training Dates Affected 50 Percent of Participants’ Records in the SPIR.
SPIR data often contained errors regarding participants’ dates of entry into and exit from training.
Errors included instances in which training dates were entered for nontraining activities or the training
dates entered were inaccurate. These inaccuracies could mislead SPIR users in a number of areas
regarding retraining -- a crucial component of the program.

We estimated 30 percent of the cases involved the entry of training dates in the SPIR, even though no
training had occurred. Often the SPIR reflected that participants received training, when in fact they


         16
          We did not include all occurrences that could have been considered exceptions. For example,
placements reported for some participants discussed in Chapter I who we believe were ineligible for Title III
assistance were not counted as SPIR errors.


Office of Inspector General                                                                                     23
The Dislocated Worker Program in a Growing Economy



had received only Basic Readjustment Services (BRS).17 Haphazard use of the training date fields to
enter dates of other participant services also contributed to errors. A participant’s enrollment into the
DW program or migration to another program component was often mistakenly reported as entry into
training.

When training was recorded, entry and exit training dates were often incorrect. Dates recorded in
“training” fields for other nontraining activities inflated the actual number of individuals who received
training. In addition, 20 percent of the files supported that actual training had occurred but either the
training entry dates, exit dates or both contained errors. The problems we noted resulted in incorrect
measurement of time that had elapsed between:

     •        the beginning and end of training, leading to wrong determinations on the length of training;

     •        the application dates or eligibility determination dates and the onset of training activity; and

     •        the end of training and program termination.

Inaccuracies also could lead to several problems when using the data to evaluate the program. For
example, misleading relationships could result from comparisons of the length of training and program
outcomes.

Errors Occurred in Hours of Training Reported for an Estimated 18 Percent of SPIR
Records. We estimate that 18 percent of the SPIR’s data contained inaccuracies in hours of training
participants were reported to have received. As with errors in training dates we previously discussed,
mistakes in the training hours that were reported could lead to errors in evaluating the effectiveness of
training activities.

We concluded that some of the main causes of training hour errors in the SPIR were:

     •        MIS computer software errors;

     •        failure to report all the training components in which the participants were engaged;

     •        use of budgeted hours rather than actual; and

     •        inconsistences in the way training hours were measured, such as using the number of class
              credit hours instead of the actual hours spent in training as the SPIR required.



         17
          BRS included a variety of nontraining activities and often involves job search assistance.


Office of Inspector General                                                                                      24
The Dislocated Worker Program in a Growing Economy



The importance of accurate program information is underscored by uses made of the data. In addition
to its obvious importance as a management tool, program information is used by the Department to
provide testimony at DOL appropriation and oversight hearings and apply sanctions in the event of
nonperformance. Under WIA, program information will also be used to award incentive grants at the
state and local levels and to apply sanctions against states, local areas and training providers that fail to
meet performance standards.

Errors in Reporting Unsubsidized Employment Occurred for 11 Percent of Individuals. As
previously discussed, errors of this type affected the DW program’s performance measures. ETA
requires that individuals be terminated from the program within 90 days from date of last “substantial
and frequent” services. We counted as errors instances in which service providers reported
participants in our sample had entered unsubsidized employment upon termination, yet the participants
had not received any substantial service from the DW program within 100 days of their termination.

We also counted as errors instances in which service providers claimed participants had entered
unsubsidized employment; however, they had actually been called back to or had remained with their
previous employers. SPIR instructions require that “recalled” employees not be counted as placement
successes.

Inaccuracies Related to Participant Followup Occurred in an Estimated 3 Percent of SPIR
Records. Errors arose in reporting data from post-termination followup.18

Problems occurred both with instances in which followup was reported to have occurred in the SPIR
but was not completed, and when required followup was completed but the SPIR reflected that the
participants were not contacted.

Inaccuracies in followup affected the accuracy of other SPIR information, including:

     •        employment at followup;

     •        the hourly wages of those found to be employed;

     •        the weekly hours of those who were working at followup; and

     •        whether the individuals employed were working with the same employer as at termination.




         18
           Followup occurs 13 weeks after termination from the program. The service providers or contractors
contact the participants by telephone to obtain employment information, including hours worked and hourly wages
for those participants employed.


Office of Inspector General                                                                                   25
The Dislocated Worker Program in a Growing Economy



We also identified several instances in which followup occurred for persons not in the followup sample
and the results were not entered into the SPIR.

ETA prescribes the minimum participant sample sizes grantees are required to contact for followup.
The sample sizes depend upon the number of participants who terminated from the program and may
include all or only a portion of the terminated participants. The missing data was the result of SSAs that
elected to sample 100 percent of the participants who had terminated from the program but entered
information in the SPIR on only the number of participants they were required to sample. ETA
indicates entities are to enter the results of all followup activities completed. By entering the results of
all followup into the SPIR, valuable data are captured and the risk that only the most favorable
outcomes will be reported is eliminated.

Some Grantees Do Not See Followup Data. The arrangements used to complete followup and the
amount of review grantees complete on the data before they are submitted to ETA differed widely
among locations. In some states, the reports were submitted directly by the followup contractor to
another contractor ETA has hired to manage collection and analysis of national SPIR data. Hence,
participant followup data were not even seen by program staff before they were submitted to ETA’s
contractor. Although such procedures may appear efficient, they prevented program counselors and
case workers from receiving feedback on program activities. In these extreme circumstances, followup
was an exercise in gathering statistical data and had no value as a local management tool.

                                                  Concerns we identified with SPIR data are persistent
 Accurate Program                                 problems that have been discussed in OIG audits dating
 Data                                             from 199619. Improvements must occur since the
 Are Critical to WIA                              accuracy and completeness of program data are even
 Operations                                       more critical to
                                                                                                 WIA
                                                                                        than to JTPA
                                                                                        programs.

A variety of WIA’s provisions are driven by the results obtained from performance measures. Instead
of a single performance measure for the DW program, as required by JTPA, four core performance
and two customer satisfaction indicators will apply to WIA. The management information and reporting
system that will be used to collect these data is the “Workforce Investment Act Standardized Record
Data” (WIASRD). The manner in which data will be collected is similar to conditions found in our
review of the SPIR. Use of unemployment wage records rather than followup surveys may improve the
consistency of data and accuracy of reports.


        19
        OIG report number 12-96-005-03-340, issued March 28, 1996, cited significant inadequacies with
management controls over SPIR data, at all levels, for JTPA Titles IIA, IIC and III.


Office of Inspector General                                                                               26
The Dislocated Worker Program in a Growing Economy



In addition, performance-related funding incentives and sanctions are to be applied at both state and
local levels and are dependent upon each entity’s success when measured against negotiated
performance levels. Even eligible training providers must submit annual performance-based data on the
outcomes of participants they have served. Their continuation as eligible training providers is dependent
upon their participants’ success in meeting minimum performance levels.




Office of Inspector General                                                                            27
The Dislocated Worker Program in a Growing Economy



                                        CONCLUSIONS


WIA will soon replace JTPA as a framework for delivering the Department’s employment and training
programs. WIA’s eligible adult and DW participant populations have more in common than under
JTPA. Relaxed eligibility requirements for the Adult program, the one-stop delivery structure and
shared service delivery and training systems would seem to blur the distinction between services for
dislocated workers and other eligible adults.

However, Congress has also made changes to the DW program that sharpen its focus on the target
populations to be served. The long-term unemployed are no longer defined as dislocated workers and
displaced homemakers have been elevated from “optional” status to an eligible group. Congress has
signaled its intention to continue dedicated assistance to dislocated workers. Provisions of the Worker
Adjustment and Retraining Notification Act, which require that certain employers give workers and
appropriate public officials advance notice of plant closings and mass layoffs, remain in force. Also,
funding continues for rapid response activities, which provide early intervention to victims of layoffs.
Separate funding streams are maintained for the DW and Adult programs, even though many other
employment and training activities were consolidated by WIA.

Our concerns with eligibility are not intended to suggest that many persons served by the DW program,
regardless of whether they satisfied program eligibility requirements, did not benefit from the DW
program. Although not within the scope of our audit, we observed many examples in which
participants were provided quality training that resulted in their obtaining employment in the fields in
which they received instruction. For example, an individual who lost his job as an assistant manager
was retrained and placed as a high school teacher. His earnings increased from $14.30 per hour to
$19.00 per hour. In another case, a person laid off as a nurse’s aide had her skills upgraded and found
employment as a licensed practical nurse after completing training.

Rather, our concern is with adequately defining the target population to be served. Guidance is needed
to ensure the DW program concentrates on persons who are out of work because of reduced demand
for specific jobs or the obsolescence of specific skills, rather than the general unemployed. The
guidance should be coupled with an allocation process that distributes program funds where they are
most needed.

Improved validity of program data must also be addressed. WIA’s performance-driven requirements
demand accurate and complete program data. Reliable data are also necessary to measure the
programs’ outcomes and to assist program officials and Congress in setting the direction and emphasis
of employment and training programs.




Office of Inspector General                                                                             28
The Dislocated Worker Program in a Growing Economy



In a meeting on May 31, 2000, the Assistant Secretary for Employment and Training stated his view
that state and local Title III recipients had exercised flexibility as intended by Congress in delivering
workforce services to meet local needs. He believed this flexibility extended to state and local
discretion in establishing criteria for determining eligibility for JTPA Title III dislocated worker
programs. ETA acknowledged that as this flexibility increases under WIA, so will the value of
increased monitoring and technical assistance. Accordingly, ETA plans to increase its dislocated
worker program technical assistance and monitoring activities.




Office of Inspector General                                                                                 29
The Dislocated Worker Program in a Growing Economy



                                   RECOMMENDATIONS


We recommend the Assistant Secretary for Employment and Training provide guidance to the states to
ensure those served by the DW program are eligible and that documentation is maintained to support
conclusions reached. The guidance should address procedures to ensure those served as DW are
unlikely to return to similar occupations or industries. In addition, guidance should be developed that
helps define what constitutes a participant’s attachment to the workforce.

The Assistant Secretary should examine possible improvements in allocating DW program funds to
states and determine if other methodologies would better distribute DW funds to areas in which they
are most needed. Alternative DW program allocation strategies could be examined in conjunction
with a study of the Adult program’s allocation formula, which is required under WIA. Viable
alternatives may include determining projected needs using labor market information or increasing the
proportion of funds distributed through applications which demonstrate need. The Assistant Secretary
should encourage the Secretary to solicit congressional support for changes that may be needed in the
allocation process. Because Governors have considerable flexibility in determining how they will
distribute DW funds among local areas and state activities, the Assistant Secretary also should provide
assistance to states on alternative ways to distribute DW funds to substate areas.

We also recommend the Assistant Secretary require ETA staff to complete periodic, comprehensive
quality review and oversight of data entered into participant information systems to ensure placements
are valid and that data are entered in accordance with program guidance and are otherwise accurate
and complete. The reviews should be completed at the data point-of-entry, as well as at entities
responsible for consolidating the information.




Office of Inspector General                                                                              30
The Dislocated Worker Program in a Growing Economy



            ETA’S COMMENTS ON THE DRAFT AUDIT REPORT


ETA generally agreed with our recommendations but voiced several concerns regarding the audit’s
premises, methodology and the conclusions. The complete text of ETA’s response is included as an
appendix to this report.

ETA indicated the general premise of the audit is that dislocated worker funding exceeds the needs of
eligible dislocated workers and is the result of our misconceptions of the purposes and operations of the
program. ETA believes the report improperly focuses on the victims of plant closures and mass layoffs
as the legitimate target group Congress intended to serve and fails to recognize EDWAA’s broader
objective of assisting all workers affected by structural changes in the workplace. ETA believes the
report has not adequately considered the importance of local flexibility in designing programs and
determining those who will be served.

ETA commented that our criticism of serving workers who did not have a bona fide job of dislocation
was improper because the concept is not defined in the Act or regulations. ETA also disagreed with
our use of locally identified high-demand occupations to judge participants’ prospects of returning to
similar jobs or occupations. ETA argued that high-demand listings may have encompassed too broad a
geographic area and may not have been current enough or sensitive to individual participants’
circumstances.

ETA does not believe there is a basis for our questioning whether assistance should have been provided
participants served as dislocated workers who had been fired for cause, voluntarily quit, retired or were
temporary workers. Again, ETA indicated neither the Act nor regulations prohibit serving such
persons. ETA specifically defended serving temporary workers through a National Reserve Account
project. The response provides:

     There is no statutory or regulatory requirement, or ETA official policy that requires
     workers who are being dislocated to have been attached to their jobs for any specific
     periods of time in order to qualify for adjustment assistance. . . .

ETA does not believe the availability of excess funds, in some areas, has contributed to broad local
interpretation of program eligibility requirements. In addition, ETA indicated Figure 3, which illustrates
the numbers of long-term unemployed served at the sites we visited, does not take into account persons
served by other of the Department’s programs. However, ETA did acknowledge that funding
allocation procedures “ . . .may not always be an accurate reflection of the dislocated worker
population,” and that improvements in the allocation formula may be possible. The comments indicate
a WIA mandate to study improvements in the adult program’s funding distribution formula may provide
an opportunity to explore improvements in the DW program’s allocation formula as well.


Office of Inspector General                                                                             31
The Dislocated Worker Program in a Growing Economy



Regarding the accuracy of program data, ETA indicated, “we acknowledge that assuring compliance
with high standards of data quality continues to be a significant challenge.”
However, ETA believes the report does not clearly distinguish between inaccuracies in data and
program effectiveness and suggests our discussion of the inaccuracy of data implies concerns regarding
the program’s effectiveness.

ETA also commented that because our sample included all Title III funds, material differences in our
projections of the “entered employment rate” from that reported by ETA are not sufficient to determine
that performance has been over-reported. According to ETA:

    Without further context, the report concludes that performance (and by implication
    effectiveness) has been over-reported, when in fact the audit’s data are sufficient only
    to raise a question – and not adequate to support a conclusion – regarding program
    performance.

The response also cited recent ETA initiatives to improve the accuracy of SPIR data and concluded
that use of UI data for WIA performance reporting should reduce problems.




Office of Inspector General                                                                          32
The Dislocated Worker Program in a Growing Economy



                           ANALYSIS OF ETA’S COMMENTS


We understand that EDWAA intends to serve persons displaced by structural changes in the
workplace and that victims of plant closing and mass layoffs represent only a portion of the eligible
target population. Our concerns are not with the failure of service providers to observe technicalities of
the eligibility determination process. Rather, many participants admitted to the program were served
without evidence they were unemployed because their skills were no longer in demand or were
obsolete. Often, those on whom little evidence was available were the long-term unemployed.

In its comments, ETA repeatedly indicated no program criteria were available and expressed its belief
that it was improper for us to have questioned individuals’ participation in the program. ETA also took
issue with criteria we used to make our judgments of whether individuals should have been served by
the program.

Guidance is needed to determine whether persons are dislocated workers. Criteria need not be
restrictive; however, absent guidance, almost any unemployed person could be served as a dislocated
worker. Adequate criteria did not exist to define what constitutes attachment to the workforce, job
tenure or how individuals’ prospects of returning to a similar occupation should be assessed.
Consequently, requirements may not be sufficient to exclude those who are not dislocated workers,
such as the 16-year old youth previously discussed in the report who mowed lawns 1 hour per week.

ETA disagreed with our use of locally identified high-demand occupations to assess participants’
prospects of returning to similar occupations or industries. ETA believes the listings of high-demand
jobs may be dated, encompass too wide a geographic area or may be too broadly defined. ETA also
indicated our examination had not adequately considered individuals’ barriers to reemployment.
According to ETA, ”. . local programs typically assess individuals reemployability using personal
information in addition to skills inventories.”

The high-demand listings are required by the JTPA program planning process and are intended to
ensure participants are trained in occupations that lead to reemployment. Consequently, they should be
an acceptable tool for determining individuals’ job prospects. We also considered each individual’s
circumstance in assessing his or her prospects of reemployment, such as a participant’s age, health and
documented attempts to find employment. As previously mentioned in the report, we used the listings
only where there was no evidence SSAs’ had applied reasonable methods in determining applicants’
reemployment prospects. We also reviewed participants’ files for evidence that other barriers existed
that may have qualified them for the program.

Regarding our evaluation of participants’ job of dislocation, ETA objected to our use of the concept of
“job of dislocation” because it is not established by statute or regulation. We agree that it is


Office of Inspector General                                                                             33
The Dislocated Worker Program in a Growing Economy



inadequately defined; however, we note that it is used by ETA in measuring program participants’ wage
gains or losses after employment in new jobs. SPIR requires entry of hourly wages from the “job of
dislocation,” and ETA compares it to hourly wages for participants who found jobs when they
terminated from the program.

ETA also defended serving temporary workers and indicated there is no requirement regarding the
length of time individuals must be attached to their jobs in order to qualify for assistance as a dislocated
workers. ETA provided several scenarios, including participants employed by temporary employment
agencies, they believed justified serving temporary workers. The scenarios discussed by ETA in their
comments were not issues in our audit. ETA also defended serving temporary workers in the National
Reserve Account project and noted that some workers are employed in temporary status for years.
Regarding the National Reserve Account project, we found some participants had left full-time
employment for the high-paying jobs with the knowledge their jobs were temporary.

ETA was in general agreement that the formula used to distribute dislocated worker funds may be
improved and suggests that options may be studied in concert with a required evaluation of the formula
allotment process under WIA’s adult program.

Regarding the validity of program data, ETA commented that we have, by implication, suggested
program performance is over-reported and that our sample estimate is only sufficient to “. . .raise a
question as to what the actual level of performance is given the data quality problems.”

We agree that evaluating the program’s effectiveness was not an objective of our audit, and we have
not made assertions regarding the program’s effectiveness. We also agree that we were unable to
statistically project a figure from our sample comparable to the “entered employment rate” for SSAs,
which was the mandatory performance measure for the Title III program. However, we disagree with
ETA’s assertion that the sample suggests only that there is a problem with actual performance levels
and not that program results have been over-reported.

As previously discussed, our sample was selected from a composite of all PY 1997 Title III activity
(SSA, Governors’ Reserve and National Reserve Account funds). Our composite sample estimate of
the “entered employment rate” (53 percent) was projected after adjusting for errors identified in the
data we reviewed. A composite Title III “entered employment rate” of 68 percent, for all Title III
programs, is also available from the SPIR. Our projection of the composite “entered employment rate”
is comparable to the composite “entered employment rate” determined using SPIR data, and we are
confident the composite Title III “entered employment rate” reported in the SPIR was over-reported.

Congress continues to provide a separate funding stream for the dislocated worker program.
Accordingly, persons served should be those Congress intended to benefit from the program. ETA’s
response indicates agreement that there is a need to ensure participants’ files contain adequate


Office of Inspector General                                                                                34
The Dislocated Worker Program in a Growing Economy



information to support eligibility, and ETA indicates it will work with state and local partners to develop
guidance in documenting eligibility. However, preliminary to documenting eligibility, there is a need for
guidance that better identifies eligible dislocated workers. The guidance need not be restrictive but
should provide some parameters that define the target populations who should be served.

Improved guidance should be coupled with an allocation process that better distributes DW program
funds to where they are needed. We are encouraged by ETA’s willingness to consider examining
alternatives to the DW program’s existing allocation formula when WIA’s adult funding formula is
examined. Finally, the DW program cannot effectively operate without accurate program information,
as ETA acknowledges in its comments. The use of UI data may reduce some types of errors we
encountered. However, WIA dependence on precise performance information demands better
oversight to ensure creditable information is entered into reporting systems.




Office of Inspector General                                                                               35
The Dislocated Worker Program in a Growing Economy



                  OBJECTIVES, SCOPE AND METHODOLOGY


                       The principal objective of the audit was to determine if current policies
    Objecti            and practices of the DW program result in the targeted population, as defined
                       by JTPA, being served.

Other audit objectives were to determine if:

     •    program data were accurately and completely reported to ETA and recorded in the SPIR;

     •    program funds were sufficient to meet program needs; and

     •    further refinements could be recommended for operation of the DW program under WIA.


Our objectives did not include determining the overall effectiveness of the program.

                            We reviewed the files of 630 participants randomly selected from the FY
  Scope and                 1997 SPIR, the latest period available at the time of our audit. The
  Methodol                  following process was used to select the sample. The 10 ETA regions
  ogy                       were grouped into 4 strata according to their geographical proximity.

                                             Strata                 ETA Regions
                  1                     I, II, III
                  2                     IV, VI, VIII
                  3                     V, VII
                  4                     IX, X

The SSAs within these strata were further stratified into three substrata, each according to the number
of terminees at each site. We then randomly selected 35 SSAs (see Exhibit D) to be included in the
audit. Terminees from Governor Reserve and National Reserve programs for each state were treated
as individual SSAs. A random sample of 18 dislocated worker files was selected from each of the 35
SSAs selected for audits. The sample was selected to yield a confidence level of 95 percent with plus
or minus 5 percent precision.

The population parameters with their standard errors were estimated using Taylor linearization
methodology. The Survey data analysis (SUDAAN) software was used for this purpose using a
stratified design with replacement. The statistical weights were determined and used to compensate for



Office of Inspector General                                                                               36
unequal probability of selection of the terminees within the sample selected SSA’s. Exhibit A provides
the results of our sampling projections.

Our review of the DW program’s internal accounting and administrative controls was limited to those
associated with the recording of intake activities, services provided, and followup activities provided to
individuals by the SSAs in our sample. Our examination was conducted in accordance with
Government Auditing Standards, applicable to performance audits, issued by the Comptroller General
of the United States. Fieldwork began July 6, 1999, and continued until February 17, 2000.

We reviewed the plans and grants that were the basis for the award of dislocated worker funds for
each audit site. We reviewed the information used to determine participant eligibility, the services
rendered each participant, and the outcome of each participant as determined through followup by the
SSA or through wage records from the UI office. We compared information contained in the
participant files to that extracted from the SPIR. Finally, we provided a "Statement of Facts" to
management officials at each site we visited. We solicited their comments on information we had
obtained in reviewing program files and considered their responses in drafting this report.




Office of Inspector General                                                                              37
                                                                                      EXHIBIT A

                          RESULTS OF STATISTICAL SAMPLES

  Attributes Projected             Universe    Point     Sampling    Confidence       Estimated No.
 Number of Participants:            Size      Estimate    Error     Limits 90%       in the Universe

 Laid Off, Drawing or Exhausted    266,019      37%         8%       24% to 50%      63,845 to 133,009
 UC

 Plant Closures & Mass Layoffs     266,019      29%         5%       21% to 37%       55,864 to 98,427


 Long-Term Unemployed              266,019      33%        10%       17% to 49%      45,223 to 130,349

 Self-Employed or                  266,019       1%         1%         0% to 2%             0 to 5,320
 Displaced Homemaker

 Participation Questioned,         266,019      35%        10%       18% to 51%      49,214 to 137,000
 Overall

 Questioned High-Demand            266,019      21%         6%       11% to 31%       29,528 to 82,200
 Occupation

 Questioned No Job of              266,019      12%         5%        4% to 20%        9,843 to 54,002
 Dislocation

 Questioned Other Reasons          266,019      18%        10%        2% to 34%        3,990 to 91,777

 Participants Placed in Jobs       253,086*     53%         6%       43% to 63%     109,080 to 159,191

 SPIR Errors, Overall              266,019      81%         5%       73% to 89%     193,396 to 237,555

 SPIR Errors - Wages for “Job of   264,910*     11%         5%        3% to 19%        7,153 to 51,128
 Dislocation”

 SPIR Errors - Training Dates      266,019      50%         9%       35% to 65%      93,107 to 172,912
 Reported in Error

 SPIR Errors - Training Hours in   266,019      18%         5%       10% to 26%       26,602 to 69,165
 Error

 Errors in Unsubsidized            266,019      11%         3%        6% to 16%       15,961 to 42,563
 Employment Reported

 Errors in Followup                266,019       3%         2%         0% to 6%            0 to 15,961


* The universe of those placed in jobs was adjusted for employees recalled by their previous
employers. The universe for the job of dislocation was reduced by the number of “displaced
homemakers” served.
                                                                              EXHIBIT B

                       COMPARISON OF PROGRAM FUNDING
                            AND PROGRAM NEED

                        Persons*                      Civilian*L               Persons*   Incidents
          Title III*    Who Lost      Persons*             abor     Unempl.    In Mass     of Mass
 Year     Funding          Jobs      Unemployed          Force       Rates     Layoffs     Layoffs


 1992       $576,986       5,389           9,613        128,105      7.5%      See Note   See Note

 1993       $566,646       4,848           8,940        129,200      6.9%      See Note   See Note

 1994     $1,118,000       3,815           7,996        131,056      6.1%      See Note   See Note

 1995     $1,228,556       3,476           7,404        132,304      5.6%         1,636   15,495

 1996     $1,091,900       3,370           7,236        133,943      5.4%         1,438   14,111

 1997     $1,286,200       3,037           6,739        136,297      4.9%         1,543   14,960

 1998     $1,350,510       2,822           6,210        137,673      4.5%         1,775   15,776
 1999     $1,405,510       2,622           5,880        139,368      4.2%         1,600   14,909

 2000     $1,600,000


* In thousands

Note: BLS did not capture comparable statistics for periods prior to 1994.
               PY 1997 TITLE III APPROPRIATIONS EXHIBIT C
        AVERAGE FORMULA- FUNDED ALLOCATION PER TERMINEE
 STATE                PY 1997 ALLOC.                                        TERMINEES                     AVERAGE
                                                      SUBSTATE         GOVERNOR RESERVE         TOTAL
 Alabama                     $14,887,940                2,284                 1,008               3,292      $4,522
 Alaska                       $3,931,646                  439                    78                 517      $7,605
 Arizona                     $10,790,780                2,213                 1,302               3,515      $3,070
 Arkansas                     $5,898,001                  695                 3,500               4,195      $1,406
 California                 $226,611,355               19,487                12,847              32,334      $7,008
 Colorado                     $6,569,865                1,891                 1,808               3,699      $1,776
 Connecticut                 $12,269,326                1,679                 2,715               4,394      $2,792
 Delaware                     $1,966,568                  392                     0                 392      $5,017
 D.C.                         $5,631,401                  277                     0                 277     $20,330
 Florida                     $47,487,185                6,289                   408               6,697      $7,091
 Georgia                     $15,447,527                2,258                10,579              12,837      $1,203
 Hawaii                       $5,392,433                1,066                     0               1,066      $5,059
 Idaho                        $3,203,461                  999                     0                 999      $3,207
 Illinois                    $41,727,268                7,954                 1,835               9,789      $4,263
 Indiana                     $11,375,233                3,288                 3,190               6,478      $1,756
 Iowa                         $4,209,472                  809                     0                 809      $5,203
 Kansas                       $4,690,124                  943                   712               1,655      $2,834
 Kentucky                    $11,913,534                2,368                   573               2,941      $4,051
 Louisiana                   $22,984,811                2,771                 1,719               4,490      $5,119
 Maine                        $4,643,804                  851                   353               1,204      $3,857
 Maryland                    $16,322,396                6,797                   394               7,191      $2,270
 Massachusetts               $18,455,865                4,855                 1,496               6,351      $2,906
 Michigan                    $24,798,043                4,624                    26               4,650      $5,333
 Minnesota                    $8,025,182                1,434                   738               2,172      $3,695
 Mississippi                 $10,812,972                2,506                 2,952               5,458      $1,981
 Missouri                    $10,875,026                2,754                 1,552               4,306      $2,526
 Montana                      $3,531,457                  438                   341                 779      $4,533
 Nebraska                     $1,594,122                  465                     0                 465      $3,428
 Nevada                       $4,632,379                  878                   571               1,449      $3,197
 New Hampshire                $2,260,095                  578                     0                 578      $3,910
 New Jersey                  $44,679,005                5,527                 6,632              12,159      $3,675
 New Mexico                   $8,607,771                1,180                     0               1,180      $7,295
 New York                    $91,917,963               15,595                 3,094              18,689      $4,918
 North Carolina              $13,056,615                2,297                   872               3,169      $4,120
 North Dakota                   $911,735                  282                     0                 282      $3,233
 Ohio                        $30,158,145                4,635                 1,329               5,964      $5,057
 Oklahoma                     $6,134,591                1,260                   618               1,878      $3,267
 Oregon                       $8,292,745                1,728                     0               1,728      $4,799
 Pennsylvania                $47,736,539                7,151                 4,118              11,269      $4,236
 Puerto Rico                 $39,306,758                2,854                 2,948               5,802      $6,775
 Rhode Island                 $4,450,933                  477                   900               1,377      $3,232
 South Carolina              $13,502,936                1,996                 5,061               7,057      $1,913
 South Dakota                   $815,418                  413                    17                 430      $1,896
 Tennessee                   $15,412,716                1,878                 1,359               3,237      $4,761
 Texas                       $81,382,699               12,263                   284              12,547      $6,486
 Utah                         $2,503,785                  459                     0                 459      $5,455
 Vermont                      $1,060,691                  269                     2                 271      $3,914
 Virginia                    $13,354,807                2,432                 1,371               3,803      $3,512
 Washington                  $26,317,878                4,355                 1,194               5,549      $4,743
 West Virginia               $12,065,944                  732                   483               1,215      $9,931
 Wisconsin                    $8,791,150                2,289                   126               2,415      $3,640
 Wyoming                        $999,905                  176                     0                 176      $5,681

 Totals                   $1,034,400,000               154,530                    81,105        235,808      $4,390


*Trust Territories allocated $2,749,381 however the number of participants were not available
                                                         EXHIBIT D
                    TITLE III AUDIT SITES
       NUMBER OF PARTICIPANTS TERMINATED DURING PY 1997
                                          NUMBER OF
    NAME              LOCATION            TERMINEES

NATIONAL RESERVE      AL                 650
OAKLAND CITY               CA                     176
SANTA CRUZ CITY       CA                 212
NATIONAL RESERVE           CA                  6,294
RURAL COLORADO        CO                 307
JACKSONVILLE               FL                      90
SHALIMAR                   FL                     275
KAUAI CTY                  HI                      84
WESTERN INDIANA SDA        IN                     231
NATIONAL RESERVE           IA                   1,251
THE CUMBERLANDS SDA        KY                     205
UNION PARISH               LA                       80
SUSQUEHANNA REGION         MD                     224
WASHTENAW             MI                  80
NORTHEASTERN MN            MN                     143
MISSISSIPPI SDA            MS                   1,694
ST. LOUIS CITY             MO                     512
ST. LOUIS COUNTY           MO                     361
GREATER NEBRASKA           NE                     238
GOVERNOR’S RESERVE         NV                     571
NEW HAMPSHIRE SDA     NH                 578
BALANCE OF ESSEX           NJ                     334
YONKERS CITY               NY                       70
BALANCE OF NASSAU          NY                     337
REGION L                   NC                     298
CANTON (CARROLL)      OH                 313
NATIONAL RESERVE           OK                     195
TOWANDA                    PA                     227
COLUMBIA                   SC                      67
W CENTRAL TEXAS       TX                  65
THE OLYMPIC                WA                     221
WINN/FOND LAKE             WI                      45
WYOMING                    WY                     176
CAGUAS/GUAYAMA             PR                     446
GOVERNOR’S RESERVE         PR                   2,948
                            APPENDIX




 TEXT OF ETA’S COMMENTS
ON THE DRAFT AUDIT REPORT
